   Office of Inspector General
       Audit Report


AMTRAK FACES CHALLENGES SUSTAINING
 INCREASED UTILIZATION AT ITS HEAVY
      MAINTENANCE FACILITIES

        Federal Railroad Administration

         Report Number: CR-2011-177
        Date issued: September 22, 2011
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Amtrak Faces Challenges                       Date:    September 22, 2011
           Sustaining Increased Utilization at Its Heavy
           Maintenance Facilities
           Federal Railroad Administration
           Report Number: CR-2011-177

  From:    Mitch Behm                                         Reply to
                                                              Attn. of:   JA-50
           Assistant Inspector General for Rail, Maritime,
           & Economic Analysis

    To:    Federal Railroad Administrator

           Amtrak’s ridership has grown significantly in the last decade, breaking passenger
           records in 9 of the last 10 years. This increase has stressed Amtrak’s aging fleet
           and put a premium on the abilities of the company's maintenance operations to not
           only ensure the fleet continues to operate safely but also to provide services to
           support demand. Until 2009, however, the company could not fully fund the
           expansion of heavy maintenance operations to repair the rolling stock it needed to
           keep up with rising demand. In 2009, the American Recovery and Reinvestment
           Act (ARRA) provided the company with an infusion of $1.3 billion that it could
           use in part to increase heavy maintenance work.

           Section 227 of the Passenger Rail Investment and Improvement Act of 2008
           (PRIIA) required the Department of Transportation’s Office of Inspector General
           (OIG) to review Amtrak’s utilization of its equipment maintenance and repair
           facilities, including the Beech Grove Mechanical facility in Indiana. Because
           Amtrak used ARRA funding to increase utilization at its heavy maintenance
           facilities, we focused our review on the impact that ARRA funding had on current
           and future utilization at these facilities. Specifically, we (1) determined how
           Amtrak used ARRA funds at its three heavy maintenance facilities to increase
           utilization, and assessed the effect of the funding’s expiration; and (2) evaluated
           Amtrak’s efforts to generate revenue through increased utilization at its heavy
           maintenance facilities and the marketing of maintenance services to outside rail
           carriers.
                                                                                                               2


To conduct this review, we visited Amtrak’s three heavy maintenance facilities to
observe operations and collect data on staffing and productivity. We met with
Amtrak management and labor about the company’s heavy maintenance
operations, and with commuter rail agencies and Canada's national passenger rail
corporation about their maintenance operations. We also met with officials from
the Federal Railroad Administration (FRA) about Amtrak’s use of its ARRA
funds. We conducted this audit from January 2010 through July 2011 in
accordance with generally accepted government auditing standards. A more
detailed description of our scope and methodology is provided in Exhibit A.

RESULTS IN BRIEF

Amtrak used ARRA funding to increase its workforce and more fully utilize
available capacity at two of its three heavy maintenance facilities. Specifically, at
Beech Grove, Indiana, Amtrak increased its workforce by 23 percent, and at the
Bear, Delaware facility by 19 percent. These workforce expansions facilitated
Amtrak’s refurbishment of passenger cars and locomotives that were not in use.
However, with ARRA’s funding expiration in September 2011, Amtrak will not
be able to sustain this expanded workforce and will have to lay-off the majority, if
not all, of these employees. Furthermore, the costs associated with the lay-offs—
continuing coverage of benefits as required by Amtrak’s labor agreements—will
further strain Amtrak’s regular funding for maintenance operations.

Amtrak has decided to market its maintenance services to other rail carriers to
increase utilization and generate new revenues through its Beech Grove facility. 1
Amtrak officials recognize that Beech Grove needs to overcome the problems of
its aged infrastructure and improve its efficiency to be competitive in the
maintenance services market. They have undertaken several initiatives in this
regard, including tracking cycle times and conducting “Lean Process Reviews” to
determine how to streamline heavy maintenance processes. As a result, Amtrak
reduced cycle times for heating ventilation/air conditioning rebuilds and seat
removal and replacement. Amtrak continues to identify areas for improvement and
consult with similar maintenance service providers for best practices. However,
the company's lack of experience in this market will make the establishment of
Beech Grove as a competitor difficult. Amtrak has performed limited work for
outside operators in the past, but mostly on a non-competitive basis. The
company’s recent bid to perform maintenance services for a California transit
authority was unsuccessful. It is studying that bid to learn how it can gain a
competitive advantage in the maintenance services market and, in turn, generate
revenues through greater utilization of Beech Grove.

1
 According to Amtrak officials, the company is initiating these marketing efforts at Beech Grove. At the Bear and
Wilmington facilities, as well as terminal locations, Amtrak is focusing on the improvement of utilization.
                                                                                                         3



We are making recommendations to FRA’s Administrator regarding Amtrak’s
planning for workforce challenges and increased utilization of the Beech Grove
facility.

BACKGROUND

Amtrak operates 21 equipment maintenance and repair facilities nationwide, most
of which are located at route endpoints, or terminal facilities, and perform
turnaround cleaning, corrective work and preventive (periodic) maintenance.
Three facilities—located in Bear, Delaware, Beech Grove, Indiana, and
Wilmington, Delaware—conduct heavy maintenance, including substantial
equipment overhauls which require removal of the equipment from the operating
fleet for at least 30 days. Amtrak employs a three-tiered overhaul program on its
rolling stock. Level 1 involves the complete rebuilding of HVAC units, brake
valves, and other critical system components, as well as heavy cleaning of
carpeted surfaces and cushion replacement. Level 2 overhauls include all aspects
of Level 1 overhauls plus replacements of major components such as windows and
cables. Level 3 overhauls include the Level 2 overhaul plus complete upgrades of
interiors including bathroom modules and seat rebuilds.

Table 1. Work Performed at Heavy Maintenance Facilities
 Location                            Type of Work Performed
Bear, Delaware                       Overhauls Amfleet single-level passenger cars used on the
                                     East coast
Wilmington, Delaware                 Overhauls electric locomotives used on the Northeast
                                                    2
                                     Corridor (NEC)
                                                                                 3            4
Beech Grove, Indiana                 Overhauls diesel locomotives and Superliner and Horizon
                                     passenger cars
Source: Amtrak

In addition to overhauls, these three facilities perform a variety of other rolling
stock maintenance services. The Bear facility repairs wrecks 5 and rebuilds seats,
braking systems, and other components for its overhauls and component
replacements at terminal operations. The Wilmington facility repairs wrecks, and
provides preventative maintenance and support for a variety of components, such
as air conditioners and braking systems. Beech Grove—the oldest and largest of
the three facilities—repairs wrecks and provides support for replacement of
components on trains at terminal operations.

2
  The NEC includes both Amtrak and non-Amtrak owned portions of the rail line from South Station in Boston,
Massachusetts to Union Station in Washington, D.C.
3
  Superliner passenger cars are bi-level passenger cars used primarily on Amtrak long-distance routes.
4
  Horizon passenger cars are single-level passenger cars used primarily on Amtrak routes in the Midwest.
5
  Wrecks are pieces of rolling stock taken out of service due to extensive damage.
                                                                                                               4



During the last decade, the workforce and output at the three heavy maintenance
facilities were underutilized largely because of scarce funding for maintenance
work and fewer scheduled overhaul cycles. In 2006, Amtrak’s Inspector General
(IG) reported that the maintenance facilities had significant excess capacity 6 and
that most did not fully staff activities during all shifts. 7 The IG also recognized
that the ideal solution would be to use the excess capacity to perform more
maintenance, and thereby generate additional revenue. At the time of the review,
however, passenger demand had not grown enough to justify increased facility
use. Since that study, acceleration in passenger demand growth has required
Amtrak to bring additional rolling stock on line, but until ARRA, the company did
not have the funding to increase maintenance enough to bring stored rolling stock
back into the operating fleet. Amtrak invested just over $90 million of its ARRA
funds for this effort.

In October 2010, Amtrak introduced a plan to generate revenue through the
marketing of Beech Grove’s passenger rail equipment maintenance and repair
services to other rail carriers. The plan includes the conversion of Beech Grove
into a world class maintenance facility with value added capabilities that will
entice other carriers to purchase its repair services. However, this plan does not
take into account the existing structural limitations of Beech Grove’s physical
plant.

AMTRAK CANNOT MAINTAIN ITS EXPANDED WORKFORCE
ONCE ARRA FUNDING EXPIRES

Amtrak cannot sustain the expanded workforce that it used to more fully utilize its
heavy maintenance facilities after its ARRA funding expires in September 2011.
Amtrak officials believed that attrition would permit them to convert the 162
employees acquired through ARRA funding to full-time positions. However,
sufficient attrition has not occurred and Amtrak must now find other means to
retain these resources or incur the expenses associated with laying them off.

Beech Grove added 108 employees and the Bear facility added 54 employees (see
Figure 1). Amtrak employed its new personnel to overhaul passenger cars and
locomotives in storage and return them to service. According to Amtrak officials,
the additional workforce and rolling stock allowed Amtrak to better utilize
available capacity at its heavy maintenance facilities. With the new personnel,


6
 Capacity refers to the physical space available to support the workload at a particular facility.
7
 Amtrak Office of Inspector General, Mechanical Maintenance Facility Rationalization (Washington, D.C.: April 24,
2006).
                                                                                                     5


Beech Grove returned to the fleet 15 locomotives and 20 passenger cars that were
wrecked or out of service, and the Bear facility returned 60 passenger cars.

 Figure 1. Impact of ARRA Funding On Workforces at Beech
 Grove and Bear Heavy Maintenance Facilities

                 Beech Grove, Ind.                                Bear, Del.


   700                                             700

   600                                             600
                                             108
   500                                             500

   400                                             400

           608                                                                               54
   300                                             300
                    542
                            496     457      470
   200                                             200    337     310       293     292      291
   100                                             100

     0                                              0

         FY 05     FY 06   FY 07   FY 08   FY 09         FY 05   FY 06     FY 07   FY 08   FY 09

         ARRA Personnel      Full-Time Personnel          ARRA Personnel       Full-Time Personnel


Source: Amtrak

Because sufficient attrition has not occurred to permit conversion of all ARRA
employees to full-time positions, Amtrak will need a new revenue source to
continue to support its enlarged workforce once its funding has returned to
pre-ARRA levels. The company’s ARRA funding expiration date was extended
from February 17, 2011 to September 30, 2011. However, the new expiration date
only delays layoffs. According to Amtrak officials, if Amtrak furloughs its ARRA
workers, it will be obligated to pay for these employees’ benefits through the end
of the month in which they are furloughed plus an additional four months of those
benefits. Because Amtrak’s average cost of benefits for one maintenance
employee for four months totals approximately $5,000, the costs of 162
furloughed employees for four months each would be more than $800,000.

AGED INFRASTRUCTURE AND A LACK OF MARKETING
EXPERIENCE HINDER AMTRAK’S PLANS TO GENERATE
ADDITIONAL REVENUE AT BEECH GROVE

Amtrak has improved the efficiency of Beech Grove’s maintenance processes.
However, its plan to increase the facility’s utilization and create a new source of
revenue through the marketing of its services will be challenging to implement
fully. The facility’s aged infrastructure coupled with Amtrak’s lack of experience
                                                                                     6


in the market will make it difficult to develop Beech Grove into the highly
competitive facility that Amtrak’s plan calls for.

Beech Grove’s Efficiency Is Limited By Its Age and Infrastructure

Beech Grove does not operate efficiently due to its age and poor condition. The
facility was constructed between 1904 and 1908 and designed to address early
20th century rail industry maintenance needs. Amtrak acquired the facility in
1975, but has not reconfigured Beech Grove to make it more efficient because of
the high cost involved. The maintenance and utility costs for such an old facility
are also high. Additionally, the building’s layout fits a job shop type of operation
instead of the progressive flow line of a modern heavy maintenance operation.
This layout increases maintenance activity cycle times because additional
movements of stock must occur between buildings.

Amtrak Has Increased the Efficiency of Beech Grove’s Maintenance
Processes to Help Overcome Its Aged Infrastructure

Despite Beech Grove’s antiquated configuration, Amtrak has recently increased
the facility’s efficiency in an effort to attract additional work and increase revenue.
It now tracks cycle time in addition to its measure of through-put. Through-put
compares a maintenance facility’s planned production against the facility’s actual
production in a year. Cycle time for a maintenance activity is the amount of time
that passes between a unit’s removal from service and its return to service. With
its focus on cycle time, Amtrak could determine whether bottlenecks occur in the
maintenance process and how they should be addressed to improve efficiency. In
2010, the Mechanical Department began conducting “Lean Process Reviews” to
determine how it could streamline its heavy maintenance processes. Specifically,
these reviews map out and evaluate each maintenance process within the larger
overhaul and wreck repair process at each heavy maintenance facility. Through
these evaluations, Amtrak officials have identified specific areas for efficiency
improvements. For example, at Beech Grove, Amtrak made the following
improvements after Lean Process Reviews:

   • Heating ventilation/air conditioning (HVAC) rebuild shop. The process
     to remove refrigeration coolant from HVAC machines generally had to be
     completed overnight. Through its evaluation process, Amtrak identified
     shop layout improvements and hardware upgrades that resulted in a 25
     percent reduction in HVAC cycle time, according to Amtrak officials.

   • Seat removal and replacement. In the past, the process to remove the
     seats from the upper level of one passenger car required five individuals
     working a minimum of 20 hours each. The Mechanical Department
                                                                                     7


       reviewed the process and determined that the use of an air cargo handler
       (scissor lift), modified to assist in rail car seat removal, would significantly
       streamline the process. Amtrak purchased an air cargo handler, and now
       three individuals can remove all seats from both levels of a car in a single
       shift‒a significant reduction in labor hours.

Amtrak is also restructuring its business processes to better align procurement
with materials management across all of its heavy maintenance facilities.
Employees at the Beech Grove facility report that significant time is lost on
projects because they have to wait for tools and supplies to be delivered to them
from an offsite warehouse 2.5 miles from the facility. To reduce this time loss and
make materials management more efficient, the Procurement Department has
begun to implement an Integrated Supply and Demand Process (ISDP) which
facilitates communication among the various departments involved in procurement
and supply. Better communication will help synchronize demand and ensure that
necessary parts are procured and provided to the maintenance facilities in a timely
and cost efficient manner. As part of ISDP, the Department will implement
SupplyPro—a system of vending machines that dispense regularly-used parts or
items to mechanics working on the maintenance facilities’ shop floors. Local
contractors will stock the SupplyPro system machines. This use of contractors will
reduce Amtrak’s material storage and labor costs, and increase efficiency in parts
procurement. Amtrak has been surveying local suppliers that could provide this
service to the Beech Grove facility.

Finally, as part of its evaluations of specific maintenance processes at Beech
Grove, Amtrak reviewed the major overhaul programs of a U.S.-based airline to
understand how the airline improved overhaul maintenance processes at its
domestic facility. Additionally, Amtrak has consulted with VIA Rail Canada,
Canada’s national passenger railroad company, to garner lessons learned from its
efforts to increase productivity at maintenance facilities. Amtrak has
communicated with VIA Rail on the areas of operations, maintenance, and
marketing. The information gathered through these relationships has helped
Amtrak make improvements and identify areas in which it can implement more
efficient processes at its heavy maintenance facilities.

Amtrak’s Inexperience in the Maintenance Services Market Will Make
it Difficult for Beech Grove to Compete

Amtrak has drafted a marketing plan for the services it plans to offer to other rail
carriers. However, because its facilities have historically focused on Amtrak’s own
fleet maintenance, the company lacks extensive experience in the competitive
market for maintenance services. Consequently, the development of Beech Grove
as a competitor will be difficult. Amtrak’s plan showcases the equipment types
                                                                                  8


and manufacturers’ products that Amtrak has previously serviced. The plan also
includes detailed information on overhauls and wreck repairs for both cars and
locomotives. However, the outside work Amtrak has conducted has been on a
limited, non-competitive basis primarily for commuter rail providers such as
Metro-North (New York City metro area commuter rail service), CalTrans
(California’s Department of Transportation), and MARC (Maryland’s regional rail
commuter service). This work generally occurs on an ad hoc basis—either an
outside agency approaches Amtrak or Amtrak discovers that an agency needs
additional services and offers to perform them under an existing business
relationship.

Amtrak’s lack of extensive experience in the maintenance work market was
evident recently when it bid to overhaul 15 CalTrans locomotives over 4 years. Its
$17 million bid was more than 28 percent higher than the winning bid. After it lost
the bid, the company conducted a thorough analysis to better understand why its
bid was rejected and how it could improve future bids. Based on what it learned in
the analysis, Amtrak plans to focus on appropriate accounting of overhead costs
and better pricing. The company recognizes the need to improve its
competitiveness in order to grow its maintenance services business. However,
since it is still developing and refining its marketing strategy, Amtrak cannot be
sure when the revenue it expects from contract awards will begin to accrue.

CONCLUSION

Amtrak’s utilization challenges at its heavy maintenance facilities were
temporarily overcome by an influx of ARRA funding. However, with the
expiration of that funding, the company will have to lay off personnel that were
used to increase maintenance facility utilization; therefore negatively affecting
sustainment of that utilization. Additionally, Amtrak will incur costs associated
with these layoffs. Amtrak has devised a plan to mitigate these additional expenses
by using its Beech Grove facility to provide maintenance services to outside rail
carriers as a means to generate additional revenue, but that plan will be contingent
upon Amtrak's ability to successfully market itself as a maintenance service
provider. At the same time, Amtrak will need to be mindful of the maintenance
needs of its own fleet so that it can maintain necessary service levels for its
increasing passenger demand.

RECOMMENDATIONS

In order for Amtrak to continue to meet passenger demand with a fleet that is in
good repair, and address the challenges at its heavy maintenance facilities, we
recommend that FRA's Administrator require Amtrak to:
                                                                                9



1. Develop an actionable plan to address pending workforce challenges and
   maximize utilization at its heavy maintenance facilities; and

2. Develop a strategic plan to achieve competitiveness for its maintenance
   services in the maintenance market that aligns with Amtrak's business model
   and does not undermine Amtrak’s own fleet maintenance.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided a draft of our report to FRA on August 15, 2011, and received their
response on September 12, 2011, which can be found in its entirety in the
appendix of this report. FRA concurred with our recommendations and stated that
it will include individual provisions in its fiscal year 2012 Capital Grant
Agreement with Amtrak directing Amtrak to develop (1) a plan to address pending
workforce challenges and maximize utilization of its heavy maintenance facilities,
and (2) a strategic plan for its maintenance services. FRA requested that Amtrak
complete those plans by December 31, 2011 and September 20, 2013,
respectively. FRA’s planned actions address the intent of our recommendations,
and we therefore consider both recommendations resolved but open pending
completion of those actions.

ACTIONS REQUIRED

Based on FRA’s response, we consider the recommendations in this report
resolved but open pending completion of FRA's planned actions.

We appreciate the courtesies and cooperation of Federal Railroad Administration
and Amtrak representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366-9970, or Yana Hudson,
Program Director, at (202) 366-2985.

                                        #

cc: Audit Liaison, OST, M-1
    Audit Liaison, FRA, RAD-43
                                                                               10


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this audit from January 2010 through July 2011, in response to a
directive in the Passenger Rail Investment and Improvement Act of 2008
(PRIIA). 1 We conducted it in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

To examine Amtrak’s use of ARRA funding to increase utilization of its three
heavy maintenance facilities, we visited Amtrak’s heavy maintenance facilities at
Beech Grove, Indiana, Wilmington, Delaware, and Bear, Delaware, and met
separately with management and unions to understand the facilities’ operations.
Additionally, we met with and collected data and documentation from Amtrak’s
Finance, Mechanical and Policy departments to understand how the company used
ARRA funds to hire additional personnel and return wrecked rolling stock to
active service. Finally, we met with FRA officials about the Agency’s oversight of
Amtrak’s ARRA funding. We also visited VIA Rail’s Montreal Maintenance
Centre in Montreal, Quebec, to meet with VIA management and to learn about
their interactions with Amtrak regarding lessons learned for heavy maintenance
processes and to observe their heavy maintenance facility operations.

To examine Amtrak’s efforts to increase capacity to generate revenue, we met
with personnel in Amtrak’s Mechanical, Policy and Procurement Departments to
discuss efforts underway to streamline maintenance processes. We observed
improved maintenance processes at Amtrak’s heavy maintenance facilities and
visited VIA Rail's Montreal Maintenance Centre in Montreal, Quebec, to discuss
the similarities and differences in VIA Rail and Amtrak’s maintenance operations.
Additionally, we collected data and documentation about Amtrak’s efforts to
market its heavy maintenance facilities to external parties. We also interviewed
FRA and Amtrak IG officials to understand their views of Amtrak’s ability to
successfully compete for outside maintenance work. Finally, we met with external
users of Amtrak’s heavy maintenance services, including the Maryland Area
Regional Commuter (MARC), the Metro North Commuter Railroad (New York)
and the California Department of Transportation (Caltrans) to understand how
they awarded maintenance work to Amtrak and why much of that work was
awarded non-competitively.



1
    Division B or Public Law 111-432 (October 16, 2008)


Exhibit A. Scope and Methodology
                                                                            11


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED


Federal Agencies:
Federal Railroad Administration, U.S. Department of Transportation, Washington,
DC
Amtrak:
Amtrak Finance, Policy and Development, and Inspector General, Washington DC
Amtrak Mechanical, Bear, DE, Beech Grove, IN, and Wilmington, DE
Amtrak Procurement, Philadelphia, PA
Amtrak’s Labor Unions:
Transport Workers Union of America (TWU)
International Association of Machinist and Aerospace Workers
International Brotherhood of Electrical Workers (IBEW)
Transportation Communications International Union
Sheet Metal Workers International Association
National Council of Firemen & Oilers
Other Organizations:
Metro North Commuter Railroad, New York, NY
California Department of Transportation (Caltrans), Sacramento, CA
Maryland Area Regional Commuter (MARC), Baltimore, MD
VIA Rail Canada, Montreal, Quebec




Exhibit B. Organizations visited or contacted
                                                          12




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                   Title

Yana Hudson                            Program Director

Brendan Culley                         Project Manager

Leslie Mitchell                        Senior Auditor

Aaron Schwarz                          Analyst

Emily Vasile                           Analyst

Susan Neill                            Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                            13



           APPENDIX. AGENCY COMMENTS




                                                               MEMORANDUM
           U.S. Department
           of Transportation


           Federal Railroad
           Administration

  Date:                                    Reply to Attn of:

Subject:   Response to OIG Draft Report Entitled “Amtrak Faces Challenges Sustaining
           Increased Utilization at its Heavy Maintenance Facilities” – Project No.
           09C3003C000

 From:     Joseph C. Szabo
            Administrator



    To:    Mitchell Behm
           Assistant Inspector General for Rail, Maritime & Economic Analysis



           The Federal Railroad Administration agrees with the report conclusion that the
           expiration of the American Recovery and Reinvestment Act of 2009 funding will
           pose challenges to Amtrak. Specifically, Amtrak will be challenged to maintain
           current levels of productivity at its maintenance facilities. For example, without
           funding employees at Amtrak’s Bear, Delaware and Beech Grove, Indiana
           facilities face potential layoffs, and Amtrak faces the additional burden of costs
           associated with those layoffs. Because more than three times the employees were
           hired at Beech Grove as compared to Bear, the Beech Grove facility faces the
           bigger challenge due to the expiration of ARRA funding. If Amtrak receive
           sufficient appropriations in fiscal year 2012, so that they have adequate resources
           to repair all wreck-damaged long distance cars, the need for layoffs may be
           reduced or eliminated.

           Appendix. Agency Comments
                                                                                 14



Recommendations and Responses

Recommendation 1: Require Amtrak to develop an actionable plan to address
pending workforce challenges and maximize utilization at its heavy maintenance
facilities.

FRA Response: Concur. FRA will include a provision in the Fiscal Year 2012
Amtrak capital grant agreement to require that Amtrak develop by December 31,
2011 an actionable plan to address the pending workforce challenges and
maximize utilization at its heavy maintenance facilities.

Recommendation 2: Require Amtrak to develop a strategic plan to achieve
competitiveness for its maintenance in the maintenance market that aligns with
Amtrak’s business model and does not undermine Amtrak’s own fleet
maintenance.

FRA Response: Concur. FRA will include a provision in the Fiscal Year 2012
Amtrak capital grant agreement to require the development of a strategic plan by
September 30, 2013 to achieve competiveness in the maintenance market that
aligns with Amtrak’s business model and does not undermine Amtrak’s own fleet
maintenance.

The Federal Railroad Administration appreciates the opportunity to respond to the
OIG draft report. Please contact Dharm Guruswamy at 202-493-6378 with any
questions if we may be of further assistance.




Appendix. Agency Comments
